No. ___________
IN THE
SUPREME COURT OF THE UNITED STATES
________________________
STEVE CHABOT, et al.,
Applicants,
v.
OHIO A. PHILIP RANDOLPH INSTITUTE, et al.,
Respondents.
________________________
APPLICATION TO EXTEND THE TIME
TO FILE A JURISDICTIONAL STATEMENT
________________________
PATRICK T. LEWIS
BAKER & HOSTETLER LLP
127 Public Square
Suite 2000
Cleveland, OH 44114
ROBERT T. TUCKER
ERIKA DACKIN PROUTY
BAKER & HOSTETLER LLP
200 Civic Center Drive,
Suite 1200
Columbus, OH 43215

EFREM M. BRADEN
Counsel of Record
KATHERINE L. MCKNIGHT
RICHARD B. RAILE
BAKER & HOSTETLER LLP
1050 Connecticut Ave., NW
Suite 1100
Washington, DC 20036
(202) 861-1504
mbraden@bakerlaw.com

Counsel for Applicants

TO THE HONORABLE SONIA SOTOMAYOR, ASSOCIATE JUSTICE OF THE SUPREME
COURT OF THE UNITED STATES AND CIRCUIT JUSTICE FOR THE SIXTH CIRCUIT:
Pursuant to Supreme Court Rules 18.3, 21, 22, and 30, Applicants 1 respectfully
seek an extension of time to and including Friday, July 19, 2019, in which to file a
jurisdictional statement in the appeal from Ohio A. Philip Randolph Institute v.
Householder, No. 1:18-cv-00357, ECF No. 262 (S.D. Ohio May 3, 2019). This would
align the due dates in this matter with those in Householder v. Ohio A. Philip
Randolph Institute, No. 18A1242, an appeal from the same injunction and opinion
challenged here. On June 5, 2019, the State of Ohio’s motion for an extension was
granted in that matter, and an extension is warranted here for similar reasons.
1.

The three-judge district-court panel below issued its judgment on May

3, 2019. See Appendix B. Its accompanying opinion and order, issued the same day,
held that all sixteen of Ohio’s congressional districts are unconstitutional partisan
gerrymanders. See Appendix A. Both the State and Applicants filed notices of appeal
on May 6, 2019. This Court has jurisdiction under 28 U.S.C. § 1253. Under the
Supreme Court’s rules, the jurisdictional statement would be due sixty days later, on
July 5, 2019. See S. Ct. Rule 18.3.

The Applicants are intervenors below. Applicants Steve Chabot, Brad Wenstrup,
Jim Jordan, Bob Latta, Bill Johnson, Bob Gibbs, Warren Davidson, Michael Turner,
Dave Joyce, and Steve Stivers are Republican members of Ohio’s congressional
delegation. Applicants the Republican Party of Cuyahoga County, the Franklin
County Republican Party, Robert F. Bodi, Charles Drake, Roy Palmer III, and
Nathan Aichele are private persons who support Republican candidates for
Congress.
1
1

2.

However, as the State’s motion for an extension explained, the State and

the Respondents agreed in the district court to a schedule requiring the State to file
its jurisdictional statement within 53 days of its notice of appeal. The Applicants
agreed to abide by the district court’s case management order upon their intervention
in the district court.
3.

The Applicants, however, have complied with the letter and spirit of that

agreement by successfully moving to stay the injunction below. As the Applicants
have pointed out on several occasions, the Court may treat the stay application as a
jurisdictional statement. See, e.g., Perry v. Davis, 565 U.S. 1090 (2011). Thus, the
Court is positioned to grant the Respondents’ request for prompt disposition of this
appeal if it so chooses, which was the point of the State’s and the Respondents’
agreement governing the timing of this appeal.
4.

On the other hand, denying this application does not help the

Respondents in any way because, unless the Court treats the stay application as a
jurisdictional statement, it will not act on the Applicants’ forthcoming jurisdictional
statement until October 2019—months after both the current timeline and requested
extension dates. Moreover, even if Applicants are required to file on the current
timeline, the Respondents will still be obligated to respond to the State’s
jurisdictional statement, which will be filed 21-days later on July 19. Thus, denying
this motion will not assist the Respondents.
5.

An extension is necessary given the need to draft the forthcoming

jurisdictional statement in light of the Court’s upcoming decisions in Rucho v.
2

Common Cause, No. 18-422 and Lamone v. Benisek, No. 18-726, which may not be issued
until days prior to the current deadlines. An extension is also appropriate given the case

load of counsel for the Applicants. Case events this summer include a trial in Common
Cause v. Lewis, 18-cvs-14001 (N.C. Super. Ct.), and an appeal in In re Bernard L.
Madoff Investment Securities LLC, No. 19-429 (L), No. 19-501, No. 19-510 (2d Cir.).
Counsel for the Applicants contacted counsel for the Respondents in advance
of making this motion to assess their position, and counsel for the Respondents did
not respond.
CONCLUSION
For these reasons, the Court should grant this application to extend the time
to file a jurisdictional statement to and including Friday, July 19, 2019.
Respectfully submitted,
PATRICK T. LEWIS
BAKER & HOSTETLER LLP
127 Public Square, Suite 2000
Cleveland, OH 44114

EFREM M. BRADEN
Counsel of Record
KATHERINE L. MCKNIGHT
RICHARD B. RAILE
BAKER & HOSTETLER LLP
1050 Connecticut Ave., NW,
Suite 1100
Washington, DC 20036
(202) 861-1504
mbraden@bakerlaw.com

ROBERT T. TUCKER
ERIKA DACKIN PROUTY
BAKER & HOSTETLER LLP
200 Civic Center Drive,
Suite 1200
Columbus, OH 43215

June 10, 2019

3

